      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General


                                                                       Washington, D.C. 20201




September 9, 2010

TO:           Thomas R. Frieden, M.D., M.P.H.
              Director
              Centers for Disease Control and Prevention

              /Joe J. Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Louisiana’s Bioterrorism and Emergency Preparedness Program
              (A-06-08-00064)


Attached, for your information, is an advance copy of our final report on Louisiana’s
bioterrorism and emergency preparedness program. We will issue this report to the Louisiana
Department of Health and Hospitals within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Patricia Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-6325 or
through email at Patricia.Wheeler@oig.hhs.gov. Please refer to report number A-06-08-00064.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

September 13, 2010

Report Number: A-06-08-00064

Ms. Doris G. Brown
Public Health Executive Director
Center for Community Preparedness
8919 World Ministry Avenue, Suite B
Baton Rouge, LA 70810

Dear Ms. Brown:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Louisiana’s Bioterrorism and Emergency
Preparedness Program. We will forward a copy of this report to the HHS action official noted
on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Mark Ables, Audit Manager, at (214) 767-9203 or through email at Mark.Ables@oig.hhs.gov.
Please refer to report number A-06-08-00064 in all correspondence.

                                             Sincerely,


                                             /Antonio Wilkinson/ for
                                             Patricia Wheeler
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Doris G. Brown


Direct Reply to HHS Action Official:

Mr. Alan Kotch
Director
Procurement and Grants Office (MS E-14)
Centers for Disease Control and Prevention
1600 Clifton Road
Atlanta, GA 30333
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF LOUISIANA’S
BIOTERRORISM AND EMERGENCY
   PREPAREDNESS PROGRAM




                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-06-08-00064
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Under sections 301, 317, and 319 of the Public Health Service Act, the Centers for Disease
Control and Prevention (CDC) provides funds to State and major local health departments to
improve preparedness and response capabilities for bioterrorism and other public health
emergencies. From August 31, 1999, to August 30, 2005, CDC provided this funding through
the Public Health Preparedness and Response for Bioterrorism Program. Since August 31, 2005,
CDC has provided funding through the Public Health Emergency Preparedness Program. We
refer to these two programs collectively as “the program.”

In Louisiana, the Department of Health and Hospitals (the State agency) administers the
program. For the period August 31, 2004, through August 30, 2006, the State agency claimed
program reimbursement totaling $27.7 million.

OBJECTIVE

Our objective was to determine whether the costs that the State agency claimed for
reimbursement under the program for the period August 31, 2004, through August 30, 2006,
were allowable, allocable, and reasonable.

SUMMARY OF FINDINGS

Of the $8,926,740 in program expenditures that we reviewed for the period August 31, 2004,
through August 30, 2006, $7,910,456 was allowable, allocable, and reasonable. However, the
State agency claimed $10,892 in unallowable costs: $6,850 for technical training that was paid
for but not taken and $4,042 related to payroll errors. These deficiencies occurred because the
State agency (1) did not have controls in place to ensure that a prepaid technical training coupon
package was fully used and (2) made clerical errors. In addition, we are setting aside $1,005,392
of contract costs because we were unable to determine whether the amount allocated to the
program accurately reflected the relative benefits received.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $10,892 for costs that were improperly charged to the program,

   •   work with CDC to determine what portion of the $1,005,392 in set-aside expenditures is
       allocable to the program and refund the unallowable portion to CDC, and

   •   develop a policy for allocating contract costs and document its allocation methodology.




                                                i
STATE AGENCY COMMENTS

In its comments on our draft report, the State agency concurred with our first recommendation.
However, the State agency requested that we reconsider the recommended refund of $6,850
related to prepaid technical training that was not taken because Hurricanes Katrina and Rita
disrupted the State agency’s operations and made completion of the contract impossible. With
respect to the second and third recommendations, the State agency provided information on
actions that it had taken or planned to take. The State agency’s comments are included in their
entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

The invoice for the prepaid training was dated April 13, 2006, more than 6 months after
Hurricane Rita, the second of the two hurricanes, hit the gulf coast. In addition, the training
coupons did not expire until April 30, 2007, more than 18 months after Hurricane Rita.
Accordingly, we continue to recommend that the State agency refund the $6,850 to CDC.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.................................................................................................................... .1

          BACKGROUND ............................................................................................................ 1
              Preparedness for Bioterrorism and Other Public Health Emergencies .......... ….1
              Louisiana Program Funding ................................................................................ 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope... ................................................................................................................ 1
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ........................................................................... 3

          UNALLOWABLE PROGRAM COSTS........................................................................ 3
              Prepaid Training Not Taken................................................................................ 3
              Payroll Expenditures ........................................................................................... 4

          POTENTIALLY UNALLOCABLE CONTRACT COSTS........................................... 4

          RECOMMENDATIONS ................................................................................................ 4

          STATE AGENCY COMMENTS ................................................................................... 5

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 5

APPENDIXES

          A: STATE AGENCY AMOUNTS AWARDED, EXPENDED, AND
              CARRIED FORWARD

          B: STATE AGENCY COMMENTS




                                                                     iii
                                       INTRODUCTION

BACKGROUND

Preparedness for Bioterrorism and Other Public Health Emergencies

The Centers for Disease Control and Prevention (CDC) provides funds to State and major local
health departments to improve preparedness and response capabilities for bioterrorism and other
public health emergencies. From August 31, 1999, to August 30, 2005, CDC provided this
funding through the Public Health Preparedness and Response for Bioterrorism Program. Since
August 31, 2005, CDC has provided funding through the Public Health Emergency Preparedness
Program.

The Public Health Preparedness and Response for Bioterrorism Program was authorized under
sections 301(a), 317(k)(1)(2), and 319 of the Public Health Service Act (42 U.S.C. §§ 241(a),
247b(k)(1)(2), and 247(d)); the Public Health Emergency Preparedness Program was authorized
by section 319C of the Public Health Service Act (42 U.S.C. § 247(d)(3)). We refer to these two
programs collectively as “the program.”

CDC issues Notices of Cooperative Agreement to awardees to set forth the approved budget, as
well as the terms and conditions of the individual awards. To monitor the expenditure of these
funds, CDC requires awardees to submit financial status reports (FSR) showing the amounts that
were expended, obligated, and unobligated.

Louisiana Program Funding

In Louisiana, the Department of Health and Hospitals (the State agency) administers the
program. For budget years 2004–2005 and 2005–2006 (August 31, 2004, through August 30,
2006), the State agency was awarded a total of $34.4 million and expended $27.7 million. (See
Appendix A.)

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the costs that the State agency claimed for
reimbursement under the program for the period August 31, 2004, through August 30, 2006,
were allowable, allocable, and reasonable.

Scope

The State agency claimed $27.7 million in direct and indirect costs for program activities during
the 2-year period August 31, 2004, through August 30, 2006. We limited our review to
nonstatistical samples of direct costs totaling $8.9 million. The table on the next page
summarizes the total expenditures from which we selected samples and the samples selected.



                                                1
                                     Total and Sampled Expenditures
                           Type of            Total Dollar            Dollar Value
                        Expenditure              Value                 of Sample
                        Payroll               $12,676,326                $108,937
                        Nonpayroll             11,167,930               3,884,224
                        Contracts               5,230,392               4,933,579
                        Adjustments 1          (1,393,646)
                         Total                $27,681,002              $8,926,740

We did not review the State agency’s overall internal control structure. We limited our review of
internal controls to obtaining an understanding of the procedures that the State agency used to
account for program funds.

We conducted our fieldwork at State agency offices in Baton Rouge and New Orleans,
Louisiana, from May 2008 through April 2009.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal and State laws, regulations, and program guidance;

    •    reviewed the State agency’s accounting procedures;

    •    tested FSRs for completeness and accuracy and reconciled the amounts reported on FSRs
         to the accounting records and Notices of Cooperative Agreement;

    •    verified that the State agency claimed indirect costs using the cost allocation plan
         approved by the Department of Health & Human Services, Division of Cost Allocation; 2

    •    interviewed officials and employees from the State agency;

    •    reviewed several positions funded by the program for evidence of supplanting; 3




1
  The State agency adjusted expenditures for the 2-year period that ended August 30, 2006, to reflect expenditures
that were made but not accounted for during the period.
2
 The Office of Management and Budget (OMB) has designated the Division of Cost Allocation as the cognizant
Federal agency for reviewing and negotiating facility and administrative (indirect) cost rates that grantee institutions
use to charge indirect costs associated with conducting Federal programs.
3
 Sections 319(c) and 319C(e) of the Public Health Service Act (42 U.S.C. §§ 247d(c) and 247d-3(e)) state that
program funds are meant to augment current funding and not to replace or supplant any other Federal, State, or local
funds provided for these activities.

                                                           2
   •   reviewed timesheets to verify time charged to the program and invoices for nonpayroll
       and contract expenditures to determine whether the State agency expended program
       funds for allowable, allocable, and reasonable costs; and

   •   selected the following 3 nonstatistical samples to determine whether the State agency
       expended program funds for allowable, allocable, and reasonable costs:

           o 50 payroll expenditures,

           o 176 nonpayroll expenditures, and

           o 15 contracts awarded by the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $8,926,740 in program expenditures that we reviewed for the period August 31, 2004,
through August 30, 2006, $7,910,456 was allowable, allocable, and reasonable. However, the
State agency claimed $10,892 in unallowable costs: $6,850 for technical training that was paid
for but not taken and $4,042 related to payroll errors. These deficiencies occurred because the
State agency (1) did not have controls in place to ensure that a prepaid technical training coupon
package was fully used and (2) made clerical errors. In addition, we are setting aside $1,005,392
of contract costs because we were unable to determine whether the amount allocated to the
program accurately reflected the relative benefits received.

UNALLOWABLE PROGRAM COSTS

Prepaid Training Not Taken

Pursuant to OMB Circular A-87, Attachment A, section C.3.a (2 CFR part 225, Appendix A,
section C.3.a): “A cost is allocable to a particular cost objective if the goods or services involved
are chargeable or assignable to such cost objective in accordance with relative benefits received.”

The State agency charged the program $6,850 in unallowable costs for prepaid technical training
that was never taken. The State agency had purchased a training package for $50,000. The
package contained coupons available for redemption, each one good for a training class for one
person. Coupons totaling $43,150 were redeemed; the remaining coupons expired. According to
a State agency official, the State agency’s information technology offices were undergoing
reorganization during our audit period, and there was a change in leadership. During that time,
the State agency did not have controls in place to ensure that the prepaid technical training
coupon package was fully used.

                                                 3
Payroll Expenditures

OMB Circular A-87, Attachment B, section 8.h(4) (2 CFR part 225, Appendix B, section 8.h(4)),
states: “Where employees work on multiple activities or cost objectives, a distribution of their
salaries or wages will be supported by personnel activity reports or equivalent documentation
….” Also, OMB Circular A-87, Attachment B, section 8.b, states: “Compensation for
employees engaged in work on Federal awards will be considered reasonable to the extent that it
is consistent with that paid for similar work in other activities of the governmental unit.”

Our review of timesheets found that the State agency had incorrectly charged the program
$4,042 for two employees’ payroll costs. One employee’s time was erroneously charged to a
bioterrorism cost reporting category. The other employee’s recorded time exceeded 24 hours in
1 day and included an incorrect number of hours worked during another day. A State official
said that both situations could have resulted from timekeeper errors.

POTENTIALLY UNALLOCABLE CONTRACT COSTS

OMB Circular A-87, Attachment A, section C.3.a (2 CFR part 225, Appendix A, section
C.3.a), states: “A cost is allocable to a particular cost objective if the goods or services
involved are chargeable or assignable to such cost objective in accordance with relative
benefits received.”

We were unable to determine whether certain contract costs were allocable to the program.
Specifically, two contractors submitted invoices for information technology support services, and
the State agency allocated a portion of each invoice amount to the program based on percentages
that it had calculated for allocating program funding. The State employees who had monitored
the two contracts were not employed by the State agency at the time of our audit, and
documentation regarding the calculation methodology and the percentages was unavailable. A
State agency official was able to explain the methodology used to determine the percentage
applied to the invoices for only one of the two contracts. However, we could not reproduce that
percentage. In addition, a State agency official said that the State agency had no written policy
regarding the methodology used to allocate costs to the program during the review period.

Because the State agency could not explain the methodology used to allocate costs for one
contract and because we could not reproduce the percentage that the State agency used for the
other contract, we were unable to determine whether the amount allocated to the program
accurately reflected the relative benefits received. Therefore, we are setting aside $1,005,392 for
further review.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $10,892 for costs that were improperly charged to the program,




                                                 4
   •   work with CDC to determine what portion of the $1,005,392 in set-aside expenditures is
       allocable to the program and refund the unallowable portion to CDC, and

   •   develop a policy for allocating contract costs and document its allocation methodology.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency concurred with our first recommendation.
However, the State agency requested that we reconsider the recommended refund of $6,850
related to prepaid technical training that was not taken because Hurricanes Katrina and Rita
disrupted the State agency’s operations and made completion of the contract impossible. With
respect to the second and third recommendations, the State agency provided information on
actions that it had taken or planned to take. The State agency’s comments are included in their
entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

The invoice for the prepaid training was dated April 13, 2006, more than 6 months after
Hurricane Rita, the second of the two hurricanes, hit the gulf coast. In addition, the training
coupons did not expire until April 30, 2007, more than 18 months after Hurricane Rita.
Accordingly, we continue to recommend that the State agency refund the $6,850 to CDC.




                                                 5
APPENDIXES
                        APPENDIX A: STATE AGENCY AMOUNTS
                     AWARDED, EXPENDED, AND CARRIED FORWARD

                   Budget Year 2004–2005                                                      Amount
Amount awarded                                                                              $12,913,581
Amount that the Centers for Disease Control and Prevention
(CDC) approved to be carried forward                                                           7,322,371
  Total 2004–2005 funding available                                                           20,235,952
Amount expended                                                                              (15,550,667)
  Amount unobligated in budget year 2004–2005                                                 $4,685,285 1

                         Budget Year 2005–2006                                                Amount
Amount awarded                                                                              $14,198,596
Amount that CDC approved to be carried forward                                                4,225,467
  Total 2005–2006 funding available                                                          18,424,063
Amount expended                                                                             (12,130,335)
  Amount unobligated in budget year 2005–2006                                                 6,293,728 2
    Total amount available for 2004–2006                                                     34,434,548 3
    Total amount expended                                                                  ($27,681,002)




1
 CDC authorized $4,225,467 of this amount to be carried forward to budget year 2005–2006; of the $459,818
difference, the State agency did not request that $309,380 be carried forward, and CDC did not approve $150,438 to
be carried forward.
2
 The State agency requested that $6,175,985 of this amount be carried forward to budget year 2006–2007; however,
CDC authorized the State agency to carry forward only $5,988,969.
3
 The total amount available for 2004–2006 does not include $4,225,467 carried forward from budget year 2005–
2006 because it was included in both the total 2004–2005 and 2005–2006 available funding amounts.
                                                                                                                      Page 1 ofl2
                       APPENDIX B: STATE AGENCY COMMENTS 



Hobby Ji ndal                                                                                                      Alan   Lcvin~ 

 GOVliRNOR                                                                                                          S&lUlT"M'l 


                                            "'tate of ]Louisiana
                                     Department of Health and J-1ospitab
                        Office of Public Health - Center for Community Preparedness


       June 16,2010

        Repon Number; A-06-08-00064

        I\ltem;on:   rarrici~   Wht:eler
        Rcgiollalln~pcclor  General for Audit Services
        Office of 'n~pcc:tor Gcn~l
        Office of AudiT Services, Region VI
        1100 Commerce SI!l":l, Room 632
        Dallas, TX 75242

        Dear Ms . Wheeler:

       This 1cttct serves as an o fficial response to the U.S . Department of Health and Human Services,
       Office of Inspector CenCi"] (OIG), draft report entitled R......... ojL",iWmIl Biotnwmm and Bm~lI9'
       P"panJ11l!t PTfJ,rram. Based on the scalc'5 initial rev;,:", we have drafted current a"tiuns taken and
       I'lallned actions in regards (0 recommendations presented.

       We appreciate th e OIG's efforts 10 identify ~nd clo~ely examine areas in which our progr:un office
       can improve. Qur program utilizes these opportuOlties to improve our diligt:ll<;C ~nd uut overlll!
       gram monitoring process. If you haye any questions, please do not hesitate to contact me at (225)
       163-3503.




        Publk Health Executive Directur
        Center for Cnmmuniry PreparedoC5s


        Endosurc




                                       11'119"w_ M"",,'"I fIooIevo<d. Su.:< a • l!>...., ~"""". l'OU:';",. 10810
                                      I'I>ooe u. 22S116J.i62') · f • • "' tlS/76J.17l0 • WlI'II':DHlI.l.A.'.(lV
                                                         -.... £<f<RI Oppunuo,.,.~-
                                                                 Page 2 ofl2




PUBLIC HEALTH
CENTER FOR COMMUNITY PREPAREDNESS
DEPARTMENT OF HEALTH . HOSPITALS   I   OffiCE Of PUBLIC HEALTH




                    RESPONSE TO THE 


     OFFICE OF INSPECTOR GENERAL AUDIT REPORT 





                     DRAFT REPORT 


                      June 16, 2010




              Report Number: A-06-08-00064
                                              louisiana Department of Health and Hospitals
                                                   Center for Community Preparedness
                                                 Response to Office of Inspector General
                                                     Report Number: A-06-08-00064
                                              Time Period: August 31, 2004 - August 30, 2006

Th e Lou isiana Department of Health and Hospitals, Office of Public Health - Cente r for Comm unity Preparedness has reviewed th e
Office of Inspector General's (OIG) draft report entitled Review of Louisiana Bioterrorism and Emergency Preparedness Progrom.
Based on th e st at e's initial review we have drafted current actions t aken and pl anned actions in regard s to recommendations
presented.

      Recommendations                               Action Taken                                         Planned Action
Refund $10,892 ($6,850-             Technical Training: It should be noted that    Th e st at e plans to continue to enforce its manual
t echnica l training and $4,042 -   Loui siana experienced the devastation of      process to ensure th at contracts are properly
for cost s th at were improperly    Hurricanes Katrina and Rita in                 monitored. The st at e is also working with a
charged to the program.)            August/Septe mbe r 2005. As such, the          contractor to develop a computer based tool to
                                    state spent many months in recovery and        monitor contracts. The system w ill be co nfigured t o
                                    respon se, suspen ding many of th e normal     automate the initiation and approva l process for
                                    bu siness activities. The Technical Trainings contracts, amendments and RFPs. SharePoint wi ll be
                                    were planned and many had been taken;          co nfigured for users to initiate and submit RFPs,
                                    however, due to circumst ances beyond th e co ntracts, and amendments. All SharePoint work
                                    state's control, were unable to be fully       will be done in-house by DHH IT. The goals and
                                    utilized. It should also be noted th at the    objectives of the proj ect are as f ollows:
                                    State's Information Technology Division        Goals and Objectives:
                                    underwent an extensive reorganization          The objectives of this project are as follows:
                                    structure that required consolidat ion of th e l.       Provide a solution to automat e the workflow
                                    agency's IT Divi sion. A manual process has             approva l process for contracts, RFPs and
                                    been implemented to ensure the co ntract                amendments.
                                    was prop erly monitored from the IT            2.       Provide a solution th at w ill track the progress
                                    perspective.                                            of each contract, RFP an d amendment.
                                                                                   3.       Provide a solution th at will include a

                                                                                                                                                    ;;,0
                                                                                                                                                2   ~
                                                                                                                                                    W
                                                                                                                                                    o
                                                                                                                                                    -
                                                                                                                                                    ..."
                                                                                                                                                    IV
This process includes regular, monthly               document repository with enabled document
status reports by each staff member.                 determination.
These reports are monitored on 3 levels: 1)    4.    Provide a solution that will enable and
Staff member's direct manager 2) DHH                 require originator to upload required
Contract Monitor and 3) Business Contacts            documents.
from the Office of Public Health (OPH).        5.    Provide report functions to detail all contract,
See detailed response on page 9.                     RFP, and amendment information.
                                               6.    Provide a solution that allows for flexibility in
The state concurs with the                           applying various ru les needed to
recommendations for this finding.                    accommodate various types of contracts.
However, the state wou ld like OIG to          7.    Provide a solution that will include training
recon sider its recommendation of                    documentation and require new users to
refunding CDC in the amount of $6,850 for            complete training.
prepaid IT Technical Trainings. The IT         8.    Provide a solution which will reduce time
Trainings were not fully utilized due to             spent on approval process.
circumstances well beyond the state's          9.    Provide a solution that records change
contro1. Hurricanes Katrina and Rita                 history of the contract, RFP and amendment
disrupted many of the state's normal day-            including user name, time stamp and changes
to-day operations and made completion of             made.
this contract impossible.                      10.   Provide a solution which enables the
                                                     approver to approve, reject, and ask for more
The payroll errors were the result of errors         information.
on the part of the agency' s timekeeping       11.   Provide a solution which enables the
staff. The agency is amendable to allow              approver to send the contract, RFP, or
CDC to recoup funds coded in error in the            amendment back to the originator or another
amount of $4,042.                                    previous step.
                                               12.   Eliminate manual process currently used.




                                                                                                         3   1
                                                                                                             <>
                                                                                                             .j:>.
                                                                                                             o
                                                                                                             ,...,
                                                                                                             ......
                                                                                                             tv
                                Payroll Errors: The state implemented a           Payroll Errors: The state plans to continue with this
                                time and attendance audit process that            process outlined to ensure th at tim e is accurately
                                weekly revi ews the tim esheet s of all           coded for all program employees. The use of
                                employees fund ed by the program. Also,           Standard Operating Procedures (SOP) within the
                                the agency mont hly reconci les the               Ad ministrative/Finan ce Unit ha s been useful in t he
                                amounts reported on FSRs t o internal             audit process as we ll as educating tim ekeepers and
                                accounting records that are based on              staff on th e proper cod ing proced ures. The state is
                                actual activity performed in accordance           also wo rkin g directly with the agency's bud get st aff
                                with budget amounts in the CDC                    to correct coding errors when t hey arise.
                                Cooperative Agreements.
Work with CDC to determine      The contracts in question were "fixed             Th e agency continues to encourage "fixed pri ce"
what portion of the             price" contracts. As defined by our agency,       co ntract s with detailed bud get s to ensure th at
$1,005,392 in set -aside        fixed pri ce contracts ca n be either based on    calculation methodology and percentages of charges
expenditures is alloca ble to   a fixed rat e paid for services rendered or       is ba se d on sound data. Th e state will work with
t he program and refund th e    accomplishment of specifi c tangib les. A         CDC to review th e expenditures ref erenced and its
unallowable portion to CDC.     fi xed-price contract set s a price that is not   relevance to the program. After a joint review
                                subject t o adju stment (except by                between agency and CDC, th ere should be an overall
                                amendment) an d is based on the                   reduction in t he set -aside expendit ure amount and
                                contractor's expenses in performing th e          th ereby prevent a return offund s.
                                contract . A fixed price co ntract provides an
                                incentive for th e contractor to control cost s
                                and perform effectively and imposes a
                                minimum admini strat ive burden on both
                                contracting parties. Fixed-price co ntracts
                                are recommended by our agency. To
                                establish a fixed price contract, our agency
                                performs th e necessary research to gather
                                cost or prici ng information that will permit
                                reason able estimates of th e cost of
                                performan ce, or historica l cost s that are
                                available on prior purcha ses, or industry

                                                                                                                                                 ~
                                                                                                                                             4   no
                                                                                                                                                 <>
                                                                                                                                                 Vl
                                                                                                                                                 o
                                                                                                                                                 ,...,
                                                                                                                                                 ......
                                                                                                                                                 tv
standards, or other methods that can be
supported by valid cost data.

The contracts in question were implement
for information technology support
services. The percentages calculated were
based on reasonable estimates, cost of
performance and agency calculations. The
agency is requesting detailed budgets from
contractors to ensure that calculations are
reasonable and based on industry
standards.

CDC prepared a detailed respon se to OIG
request for information in this area. These
following details CDC's involvement and
monitoring of the contract:
    2004 Technical Review Summary &
    Budget Excel;;!tion Review of louisiana' s
    PHEP Funding AQl2lication (August
    2004) : The DSLR project officer for
    loui siana restricted a $550,000 request
    for equipment and software re lated to
    PHIN infrastructure implementation,
    pending additional information. The
    project officer requested that the state
    provide more budget detail and
    justification. Satisfactory additional
    information was later provided by
    louisiana and the restriction was lifted.


                                                     ;,0
                                                     (JQ
                                                 5
                                                     <>
                                                     0;
                                                     o
                                                     H;
                                                     ......
                                                     tv
2004 Mid-:y:ear PHEP Progress Re~ort
Submitted b~ l ouisiana 'A~ril 2005 ):
The Louisiana Office of Public Healt h
reported that it had set an internal
standard based on a single Oracle
database platform for the purpose of
integrating Health Alert Network (HAN)
and Public Health Information Network
(PHIN) applications. In its progress
report, the state reported that late
fund ing an d procurement had been
identified as obstacles to completing
this project.

2005 louisiana PHEP
A~~licatio nLB u dg et
                   Reguest (J ul ~
2005): CDC approved a budget request
for a contract with Oracie, procured via
bid as part of the state's procurement
process. The budget included 3,076
hours of Oracle consulting services at
$19S/hour for a tota l cost of $599,820.
The period of performance was from
Septem ber 1, 2005, to Augu st 30, 2006,
with accountability ensured through
quarterly reports. The purpose of the
professiona l services contract was to
enable real-time auditing of
bioterrorism data in harmony with
current PHI N infrastructure and HAN
systems.
                                               ;;,0
                                           6   ~
                                               -.)
                                               o
                                               -
                                               ..."
                                               IV
                                     2005 Louisiana Mid-year PHEP Progress
                                      Report IM ay 2006): The state reported
                                     th at Hurricanes Katrina and Rita have
                                     delayed completion of assessments and
                                     implementation of the PH IN
                                     information t echnology syst em.

                                     Louisiana Site Visit Re~ort (Februa!y
                                     2007): CDC conducted a site visit from
                                     Nove mber 27 through December 1,
                                     2006. In the site visit report, th e project
                                     officer noted that th e state had
                                     encountered problems building its
                                     information t echnology infrastructure
                                     si nce the Oracle system woul d not be
                                     PHIN co mpliant. Th e state' s
                                     intero perability workgroup conducted a
                                     ga p analysis, which indicated it would
                                     be better to purchase a new system.
                                     Th e CDC proj ect officer scheduled a
                                     co nference call with the st at e and th e
                                     CDC PHIN subject matter experts to
                                     discuss th e best type of system to
                                     purchase to become PHIN compliant
                                     and have t he system meet the state's
                                     needs.

Develop a policy for allocating   Th e agency has developed a detailed policy       Th e st at e will co ntinue to utilize the policy manual
contract costs and document       manual th at outlines aU contracting              an d ensure that staff is educated on the process.
its methodology.                  procedures (Department of Health and
                                                                                                                                                   ;,0
                                                                                                                                                   (JQ
                                                                                                                                               7
                                                                                                                                                   <>
                                                                                                                                                   00
                                                                                                                                                   o
                                                                                                                                                   H;
                                                                                                                                                   ......
                                                                                                                                                   tv
Hospitals - Contract Manual February
2009) . Prior to contracting the state pre-
budgets the amount to be spent on any
contract for approval by CDC. The state
then requires each contractor to submit a
detailed budget that will account for all
costs associated with the contract. Payment
is then determined and set on a breakdown of
completion of tasks outlined in delivera bles or
upon co mpletion of services.




                                                       ;;,0
                                                   8   ~
                                                       '-0
                                                       o
                                                       -
                                                       ..."
                                                       IV
                                                                                                  Page 10 ofl2




In addition, the Louisiana Department of Health and Hospitals, Office of Public Health - Center
for Community Preparedness requests modification of the report based upon the followi ng:

   1. 	 Page 3 - "These deficiencies occurred because the sta te 1) did not have control s In
       place to ensure that a prepaid te<hnical training coupon package was fully used and 2)
       made cierical errors.": The st ate contends that the ~deficiencies~ were not a result of
       lack of controls but more so unpreventable due to the catastrophic disaster the state
       experienced. l ouisia na was hit by both hurricanes Katrina and Rita during this grant
       period. The state was activelv engilged in response from Augus t 30, 2005, through
       December 2005. In responding, the state took as its top pr iority the sustainability of
       human life and the preservation of the citizens of the state. This event caused not only
       a disruption to Louisiana life and the medical infrastructure, but also to normal business
       operations. CDC in its 2006 Si te Visit Report stated, HLouisiana is dealing with many
       challenges after Hurrica ne Katrina including destruction of the public heahh laboratory
       and state health offices, and a massive population shift. Census da ta collected by DHS,
       Tu lane and Louisiana Public Health Institute indica te the Baton Rouge population has
       doubled, and New Orleans Parish has 187,000 persons as compared to 4;40,0Q{) prior to
       Hurricane Katrina. During the day that number increases to 300,000 as 100,000 workers
       drive into the parishes. The state is still seeking reimbursement for FEMA claims, and
       this will probably ta ke five to ten years to be resolved according t o t he state.H These
       sta temen t s reinforce the magnitude and impact of these devastating storms.

   2. 	 louisiana Department of Health and Hospitals - Division of Information Technology
        Detailed Response to RKOmmendations: During the period of May 2008 through April
        2009, st aff from the newly consolidated DHH Division of Information Technology (IT)
        met wi th the members of the audit team from th e Office of Inspector General (DIG) on
        several occasions. It w as the understanding of IT, that the objective of this audit was
        to determine whet her the costs claimed by DHH for reimbursement was appropriate
        and accurate for the period of August 31, 2004 th rough August 30, 2006. It was difficult
        for the DHH IT staff to provide the appropriate amount of response to DIG's request for
        information for 2 major reasons:
             • 	 The first half of this per iod in question was documen t ation from pre-Hurricane
                 Katrina. The documentation, both electronic and paper copies, was housed in a
                 building that was destroyed by the waters of Hurricane Katrina. Although the
                 water finally subsided fro m the building. which was located at 301 Loyola
                 Avenue In Downtown New Orleans, electricity was never returned to the
                 buildin g. Once the city was deemed safe to ret urn to, staff was only able to
                 enter the building under close supervision by securit y and was only permitted
                 time t o retrieve minimal belongings, equipment and files. The majority of th e
                 paper files were unable t o be recovered due to the mold and the majority of the
                 computer equipment was not recovered.
            • 	 Alt hough the second half of th e period in question was post -Hu rrica ne Katrina, it
                 was prior and during the consolidation of IT. The majority of t he newly
                 conso lidated IT l eadership was not in thei r curren t pOSitions at that ti me and

                                                                                                     9
                                                                                               Page 11 ofl2




            had little to no interaction with the contracts In question. It took many months
            to  Hregroup~ after the consolidation and get a handle on the various IT wo rk and
            cOrltracts in place. The Division also feels that the consolidation led to the low
            ut ilization of the pre-paid training. During that time lines of authority were
            undear and many members of the management team did not have a complete
           handle on all of the activities going on within our department,
    After our initial meeting with OIG staf f, IT Leadership better understood the issue at
    hand regarding the CDC funding; as a result, in March 2009, the issues surrounding the
    IT contracts were documented and a manual process was implemented to ensure the
    contract was properly monitored from the IT persp&tive. The goal of the manual
    process was to ensure the following 3 items were met:
         • 	 Abil ity to track wo rk by each person
         • 	 Ab ility to track every hour of work performed based on the 3 types of work
             (Operations, Support & Proj&ts)
         • 	 Ability to document how the work performed was directly related to the CDC
             grant funding
This process includes regular, monthly status reports by each staff member. These reports
are monitored on 3 levels: 1) Staff member's direct manager 2) OHH Contract Monitor and
3) Business Contacts from the Office of Public Health (OPH). The defined monitoring
process ensures that the work perfor med strictly relat es back to the COC fundin g. During
later meetings with the OIG Team, the Division relayed th is manual process to them as well
as reviewed many of the new IT initiatives underway to ensure all work is properly tracked,
Although the consolidation of IT began shortly after Hurricane Katrina and the 1" DHH ClO,
Ed Dr iesse, was named, it was not completed until January 2009 that DHH IT hired its 20(1
Chief Information Officer (CIO), John Ragsdale. From January - March of 2009, John, spent
a significant amount of time reviewing the organization and developing a strategic plan to
ensure IT projects were Identified, developed, e~ecuted, monitored and closed more
effectively than in the past It took almost a year to get the appropriate resou rces in place
to begin this process. In January 2010, IT staff began working on a 6 month IT Internal
Improvements (ITII) project. Among other t hings, th is project includes the Implementation
of 3 major tools/processes which we feel will allow us to accurately document how contract
costs are allocated based on time spen t working on operations, support and projects. As
they relate to the CDC funding. below is a description of the 3 tools and how their
functional it y will assist DHH IT in properly and efficiently allocating costs:
        • 	 CA Clarity: Clarit y is a project an d portfolio management (PPM) solution which
             allows for visibilit y into the current state of all proj&ts funded th rough the CDC.
             It is a centrali~ed collection of data which includes, status of work performed,
             time allocated to the task and time used to complete the task by resource.
        • 	 CA Service Desk: Service Desk is a single poin t of contact for support within OUf
             organizat ion. It is the first line of response in mitigating service disruptions, This
             product will also be used track st atus of work performed and time allocated to
             the task.



                                                                                                 10
                                                                                            Page 12 ofl2




       • 	 Microsoft SharePolnt: SharePoint allows web-base d access t o informa tion
           housed in both Clarity and Service Desk. In the event of it natural disaster, any
           staff mem ber and/or business liaison will be able to access status reports, time
           sheets, project Information, elc.
Another strong component of our newly consolidat ed IT organization is the stringent
oversight by the IT Leadership Team. During t he past 18 months, members of the DHH IT
leadership team have defined dea r lines of authority. The Division believes the structure to
IT leadership team provides account ability, da rity and cohe re nce to our organization as
well as to the work performed. The Division strongly feels that the development and 

implementati on of these tools and the processes surroun ding them will provide our 

organization a strong foundation In better grant management and in tracking the work 

perform ed against th ese funds. Th is new automated process of tracking time for the CDC 

grant project will officialiV re place the manual status reporting process on August 15, 2010. 




Condusion: 

Louisiana is appreciative of the feedback and the review of grant procedures bv the OIG. 

We request that the aforementioned modifications be added t o the final report. The 

l ouisiana Department of Health and Hospitals will continue to ensure its due diligence in all 

grant activi ties and monitorin g. 





                                                                                               u
